U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 8, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Manfredo M. Salinas v. United States Railroad Retirement Board,
No. 19-199
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 15,
2019. The government's response is now due, after two extensions, on November 15, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0 199
SALINAS, MANFREDO M.
U.S. RAILROAD RETIREMENT BOARD

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM

